TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Improvements Have Been Made to the
                  Recruitment Process, but Continued Focus
                  and Additional Enhancements Are Needed



                                      September 13, 2010

                              Reference Number: 2010-10-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


IMPROVEMENTS HAVE BEEN MADE TO                         While the IRS has taken many significant
THE RECRUITMENT PROCESS, BUT                           actions, it could enhance its oversight of
CONTINUED FOCUS AND ADDITIONAL                         program improvements by making changes to
ENHANCEMENTS ARE NEEDED                                better monitor and measure its activities. By
                                                       timely and effectively implementing the
                                                       remaining recruitment key actions and
Highlights                                             measuring the impact of changes in recruiting
                                                       processes, the IRS will have greater assurance
                                                       that highly qualified candidates are attracted to
Final Report issued on September 13,                   IRS careers and will be able to focus on
2010                                                   successful recruitment strategies and
                                                       discontinue strategies that are ineffective.
Highlights of Reference Number: 2010-10-113
to the Internal Revenue Service Human Capital          While the IRS has made much progress,
Officer.                                               improving recruiting activities will require
                                                       long-term commitment and focus as some key
IMPACT ON TAXPAYERS                                    actions take longer to implement and time is
The Internal Revenue Service (IRS) is facing a         needed before the impact of changes can be
major challenge with a large number of                 measured and acted upon. For example, the
retirements expected over the next several             IRS has not had enough time to survey new
years. The IRS has developed an agency-wide            hires to obtain feedback on its new recruitment
strategic recruitment plan, but follow-through         process or had time to collect and evaluate new
and additional actions are needed to ensure the        measures on the effectiveness of its recruitment
IRS attracts qualified employees. Effective            process.
recruiting increases the IRS’ ability to ensure        WHAT TIGTA RECOMMENDED
taxpayers receive the best possible service.
                                                       In addition to continuing its focus on
WHY TIGTA DID THE AUDIT                                implementing best practices to build a fully
In a prior audit report of recruiting activities,      effective recruiting program, TIGTA
TIGTA determined that the IRS did not have an          recommended the Director, IRS Recruitment
agency-wide recruitment strategy or                    Office, develop measures for recruitment
performance measures to assess recruiting              strategies, incorporate all applicable measures
efforts. The overall objective of this review was      into a tracking system, and establish completion
to assess the IRS’ progress in developing an           dates for milestones in the recruitment office
effective agency-wide recruitment program.             action plans.
                                                       In response to the report, the IRS Human
WHAT TIGTA FOUND
                                                       Capital Officer agreed with the recommendation
In the approximately 18 months since TIGTA             and plans to take appropriate corrective actions.
completed its last audit of the IRS’ recruiting
process, the IRS has taken significant actions to
improve its ability to recruit qualified candidates.
These improvements enabled the IRS to report
that it is on target to meet its mission-critical
occupation, geographic, and diversity hiring
goals. As part of this effort, the IRS has
completed many of the Office of Personnel
Management’s key actions for recruiting and
addressed TIGTA’s prior recommendations. For
example, the IRS has recently developed a
comprehensive agency-wide recruitment
strategy.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 13, 2010


 MEMORANDUM FOR INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Have Been Made to the
                             Recruitment Process, but Continued Focus and Additional
                             Enhancements Are Needed (Audit # 200910032)

 This report presents the results of our review to assess the Internal Revenue Service’s progress in
 developing an agency-wide recruitment program that will attract highly qualified candidates.
 This audit was conducted as part of the Treasury Inspector General for Tax Administration’s
 Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of Human
 Capital.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                                          Improvements Have Been Made to the
                                        Recruitment Process, but Continued Focus
                                        and Additional Enhancements Are Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Significant Improvements Have Been Made to Recruit Candidates
          That Can Provide the Service Taxpayers Have Come to Expect.................. Page 4
          Continued Focus Is Needed to Build a Fully Effective
          Recruiting Program ....................................................................................... Page 7
          Additional Actions Would Strengthen Efforts to Recruit
          Qualified Employees ..................................................................................... Page 8
                    Recommendation 1:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Status of Efforts to Improve Recruiting ............................... Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 20
        Improvements Have Been Made to the
      Recruitment Process, but Continued Focus
      and Additional Enhancements Are Needed




            Abbreviations

HCO   Human Capital Office
IRS   Internal Revenue Service
OPM   Office of Personnel Management
                                        Improvements Have Been Made to the
                                      Recruitment Process, but Continued Focus
                                      and Additional Enhancements Are Needed




                                                 Background

Human capital1 is the Federal Government’s most critical asset. At a time when the Federal
Government is preparing for increased retirements and taking on such challenges as healthcare
reform, recruitment2 plays a key role in ensuring agencies can maintain a quality workforce
capable of meeting the needs of the American public. However, there is a growing concern
about the Federal Government’s ability to attract quality talent. To address these concerns, the
Office of Personnel Management (OPM) published an End-to-End Hiring Roadmap to serve as
recommended guidance to transform hiring by strategically integrating five components that will
assist agencies in hiring quality talent. These components are:
       1. Workforce Planning – A systematic process for identifying the human resources required
          to meet an agency’s mission and developing strategies to meet these requirements.
       2. Recruitment – An ongoing process requiring agencies to identify and attract a sufficient
          pool of qualified talent interested in working for the Federal Government.
       3. Hiring – A process to fill positions with new hires from outside the Federal Government.
          This includes the process of posting jobs, interviewing applicants, and making tentative
          offers of employment.
       4. Security and Suitability – The security clearance process includes investigating the
          background and determining the eligibility of applicants to access sensitive information.
          Suitability is the process of assessing the character and conduct of applicants.
       5. Orientation – The agency’s effort to familiarize a new employee with the organization.
Collectively, these five components create an integrated strategic hiring process (i.e., all
components should work together to form an effective end-to-end hiring process). For example,
a successful process for hiring qualified candidates is dependent on the ability of the
Internal Revenue Service (IRS) to plan for its workforce needs (workforce planning) and identify
a sufficient pool of qualified talent (recruitment). This interrelationship will eventually affect an
agency’s ability to serve its customers. Figure 1 shows the order and interrelationship of the five
components in the end-to-end hiring process.




1
    Human capital is used to describe the skills, abilities, and contributions of the people in any agency.
2
    Recruitment refers to the process of identifying and attracting potential job candidates.
                                                                                                              Page 1
                                      Improvements Have Been Made to the
                                    Recruitment Process, but Continued Focus
                                    and Additional Enhancements Are Needed



              Figure 1: Five Components to an Integrated Strategic Hiring Process

    Step 1:               Step 2:             Step 3:              Step 4:             Step 5:
    Workforce Planning    Recruitment         Hiring               Security and        Orientation
                                                                   Suitability


     Source: OPM End-to-End Hiring Roadmap.

Although all five components are necessary to implement an effective integrated strategic hiring
process, the focus of this audit was on Step 2, the recruitment component. Within the
recruitment component, the End-to-End Hiring Roadmap provides agencies with 9 best practices
and 50 key actions to implement an effective recruitment program.
Like many Federal agencies, the IRS is faced with a major challenge to replace existing talent
because of a large number of retirements expected over the next several years. The IRS has
approximately 106,000 employees, including 9,100 managers. More than half of the
IRS’ employees and managers have reached age 50 and can retire within 10 years. In addition,
39 percent of IRS executives are already eligible for retirement. Replacing these employees
represents a significant challenge since many possess unique skills and institutional knowledge
that will be difficult to replace in the short-term.
To address its human capital challenge, the IRS Commissioner established the Workforce of
Tomorrow Task Force in September 2008 with the goal to make the IRS the best place to work
in Government and ensure that within 5 years it has the leadership and workforce ready for the
next 15 years. The Workforce of Tomorrow Task Force suggested that the IRS create an
agency-wide recruiting strategy that will support IRS business operating divisions and establish a
consistent corporate message. The strategy suggested an integrated set of recruiting solutions,
which included the establishment of a new, centralized IRS Recruitment Office within the
IRS Human Capital Office (HCO) to work in partnership with the IRS business units.
In February 2009, we reported3 that the IRS’ recruitment activities were decentralized and
focused on short-term hiring goals. While the IRS had taken steps to improve recruiting, it did
not have an agency-wide recruitment strategy that included a long-term plan for all functions
involved in recruiting or a system to measure the effectiveness of all recruiting efforts.
The IRS’ HCO was created in July 2003, with the appointment of the Chief Human Capital
Officer. The HCO was positioned under the Deputy Commissioner for Operations Support to
provide human capital strategies and tools for recruiting, hiring, developing, retaining, and
transitioning a highly skilled and high-performing workforce to support IRS mission


3
 An Agency-Wide Recruitment Strategy and Effective Performance Measures Are Needed to Address Future
Recruiting Challenges (Reference Number 2009-10-025, dated February 23, 2009).
                                                                                                       Page 2
                               Improvements Have Been Made to the
                             Recruitment Process, but Continued Focus
                             and Additional Enhancements Are Needed



accomplishments. In March 2009, the IRS created a centralized IRS Recruitment Office as a
new organization within the IRS HCO.
This review was conducted while the IRS was in the process of implementing new recruiting
processes. As a result, this report reflects the status of the IRS’ recruitment program as of
April 2010 when we completed our fieldwork and may not reflect the most current status of the
IRS’ recruiting activities.
This review was performed at the IRS Recruitment Office within the HCO Division in
Washington, D.C., during the period November 2009 through April 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                                     Improvements Have Been Made to the
                                   Recruitment Process, but Continued Focus
                                   and Additional Enhancements Are Needed




                                       Results of Review

In the approximately 18 months since we completed our last audit of the IRS’ recruiting process,
the IRS has taken significant actions to improve its ability to recruit qualified candidates. These
improvements have enabled the IRS to report that it is on target to meet its mission-critical
occupation,4 geographic, and diversity hiring goals. As part of this effort, the IRS has completed
many of the OPM’s key actions needed to develop an effective recruiting program and addressed
our prior recommendations. However, improving recruiting activities will require long-term
commitment and focus, as some activities are in process and more time is needed before the
impact of changes can be measured and acted upon.
While the IRS has taken many significant actions, it could enhance oversight of its recruitment
program by making changes to better monitor and measure its activities. By timely and
effectively implementing the remaining key actions and measuring the impact of changes in
recruiting processes, the IRS will have greater assurance that highly qualified candidates are
attracted to IRS careers. In addition, the IRS will be able to focus on successful recruitment
strategies and discontinue strategies that are determined to be ineffective.

Significant Improvements Have Been Made to Recruit Candidates
That Can Provide the Service Taxpayers Have Come to Expect
The mission of the IRS is to provide America’s taxpayers top-quality service by helping them to
understand and meet their tax responsibilities and enforce the tax laws with integrity and fairness
to all. To achieve its mission today and lay the foundation for a successful agency for years to
come, the IRS needs qualified and skilled employees. Effective recruiting increases the
IRS’ ability to hire the most qualified employees capable of providing taxpayers the best possible
quality service needed to meet their tax responsibilities. It also helps potential employees better
learn about career opportunities within the IRS.
The IRS has started or completed many of the OPM key actions to implement the following
recruiting best practices.
    •    Creating an Agency Brand.5
    •    Selecting and Training a Recruitment Team.


4
  Mission-critical occupations are those positions critical to front-line enforcement and direct support to front-line
operations needed to meet the stated IRS goals.
5
  An agency brand is the message an agency wants to communicate about the agency and what it is like to work for
the agency versus another organization.
                                                                                                               Page 4
                                    Improvements Have Been Made to the
                                  Recruitment Process, but Continued Focus
                                  and Additional Enhancements Are Needed



    •   Identifying Career Patterns of IRS Employees.
    •   Creating Recruitment and Staffing Plans.
    •   Developing Marketing Strategies.
    •   Cultivating Relationships and Building Networks With Colleges and Professional
        Organizations.
    •   Identifying IRS Recruitment Cycles.6
By implementing these best practices, the IRS should have a better understanding of its talent
challenges and the type of people it will need to recruit to fill its hiring needs. Collectively, the
improvements should place the IRS in a better position to identify and attract qualified
candidates, both now and in the future, but it is still too early to know whether the actions will
actually translate into the hiring of highly qualified employees.

The IRS is in the process of implementing activities that are needed to identify
and attract qualified talent
The OPM provides agencies with guidance for implementing a proactive recruitment model that
is focused on building talent pipelines, cultivating and maintaining partnerships, and monitoring
recruiting activities to successfully secure top talent. This guidance identified nine best practices
that are needed for Federal agencies to develop an effective recruitment program. While not
enough time had passed to evaluate 2 of the best practices, we determined that the IRS had
completed 30 (60 percent) of 50 key actions associated with the 9 best practices as shown in
Figure 2.
        Figure 2: Status of Key Recruiting Actions Completed and Remaining




                          Source: Our analysis of IRS key actions and nine recruitment
                          best practices in the OPM’s End-to-End Hiring Roadmap.

6
 A recruitment cycle is usually a large-scale effort to hire new employees, which can happen annually or seasonally
or be tied to budgets. In government hiring, a recruitment cycle may coincide with a fiscal year budget.
                                                                                                           Page 5
                                   Improvements Have Been Made to the
                                 Recruitment Process, but Continued Focus
                                 and Additional Enhancements Are Needed



The 30 key actions represent significant improvements in the IRS’ recruitment program. For
example, the IRS has created a long-term centralized recruiting strategy tied to organizational
objectives and desired outcomes. In our prior audit, we noted IRS recruiting activities were
focused on immediate staffing needs based on annual hiring plans. Taking a more long-term
approach to recruiting has enabled the IRS to market the agency as an employer of choice. We
also noted in our last audit that IRS recruiters believed that their efforts were not always directed
at the most productive activities and locations because the IRS had a decentralized approach to
recruiting. By centralizing recruiting activities into one office, the IRS has been able to begin the
process of identifying approximately 100 core colleges and universities to develop deep, ongoing
relationships in an effort to target its recruiting efforts.
While the IRS is to be commended for the improvements it has made to date, the improvements
to the recruitment program could be lost or become outdated since they are contingent upon the
IRS effectively completing the remaining 20 key actions. The completion of the remaining key
actions will increase assurances that the IRS has developed a recruitment program that is able to
meet the challenges of identifying qualified candidates who possess the required skills and
competencies to accomplish the mission of the IRS. An effective recruitment program will also
assist the IRS in strategically planning for future talent needs. Appendix IV lists each best
practice, as well as examples of key actions that have been completed and key actions that
remain open.

The IRS has implemented recommendations that will assist it in developing an
effective recruitment program
Our last audit of recruiting activities reported that the IRS did not have an agency-wide
recruitment strategy and had not established a long-term workforce planning process (Step 1 in
Figure 1), which is needed to create strategies to address future retirements. The workforce
planning process should also identify the skills that the IRS anticipates it will need so that the
IRS recruitment program can target candidates with those skills. Workforce planning is an
essential component of the hiring process. It ideally should be developed up front if the other
four components of the hiring process are to be effective. Further, recruiting and workforce
planning efforts should be based on the IRS’ understanding of the number of employees that will
be needed, along with the skills and competencies necessary to accomplish the IRS mission.
Since our last audit, the IRS developed an agency-wide7 strategic recruitment plan that supports
the IRS’ organizational objective of “making the IRS the best place to work in government.”
Included in the strategic recruitment plan is a recruitment objective of “attracting outstanding
candidates from diverse backgrounds to fill every vacancy position.” To achieve this objective,
the recruitment plan has strategies that address six different demographic segments for potential

7
  While many organizations within the IRS have differing recruitment requirements, all IRS business divisions and
operations have adopted this agency-wide approach except for the Criminal Investigation Division, which continues
to maintain its own recruiting staff and control of its recruiting activities.
                                                                                                         Page 6
                                   Improvements Have Been Made to the
                                 Recruitment Process, but Continued Focus
                                 and Additional Enhancements Are Needed



candidates (e.g., mid- and late-career professionals, diversity needs, college students, etc.), and
includes strategies to market the IRS as an employer of choice for each segment. Developing
strategies that will identify and attract candidates from each segment will increase assurance that
the IRS can keep up with attrition and retirements by recruiting qualified candidates and
achieving a more diverse workforce.
The IRS also developed a workforce planning process that included a profiling of the current
workforce, the identification of staffing trends, and the use of projection models to determine
future human capital needs. The projection models included an analysis of the overall agency,
including IRS business units and the IRS Appeals function. The IRS also developed projection
models for six occupations8 it determined to be critical to accomplishing its mission. Up to
seven different analyses are performed for each projection model to determine workforce needs.
This workforce planning process should assist the IRS in attracting a sufficient number of
qualified candidates to apply for IRS jobs since it will assist in identifying and addressing the
gaps between the workforce of today and the workforce of tomorrow.

Continued Focus Is Needed to Build a Fully Effective Recruiting
Program
To implement an effective recruitment program, the IRS must continue to focus on completing
the remaining 20 key actions needed to implement the 9 recruiting best practices. For instance,
several key actions remain to be completed:
    •   Evaluation of the new IRS agency brand – The IRS has developed an agency brand
        and strategies to implement the brand. The IRS has also launched the brand by including
        it on the IRS web site. While the Director, IRS Recruitment Office informed us the new
        brand had received positive early feedback, completing the implementation of the brand
        will require the IRS to include it on recruiting materials and other electronic recruiting
        tools and to conduct an evaluation on the effectiveness of the brand, which will assist in
        determining whether the brand is resonating with candidates and employees. However,
        the remaining key actions for this best practice cannot be completed until a sufficient
        number of candidates are hired under the new brand so the IRS can evaluate the role the
        brand played in the recruitment process.
    •   Selection and training of a recruitment team that consists of diverse recruiters with
        the competencies necessary to market the IRS mission and its career opportunities –
        The IRS has successfully completed key actions which provide that recruiters should
        identify and build relationships with professional organizations. In addition to targeting
        professional organizations, the IRS has designated managers to oversee other target

8
 These occupations are Appeals Officers, Customer Service Representatives, Information Technology Specialists,
Revenue Agents, Revenue Officers, and Tax Examiners.
                                                                                                        Page 7
                                    Improvements Have Been Made to the
                                  Recruitment Process, but Continued Focus
                                  and Additional Enhancements Are Needed



        candidate segments, such as veterans, students, candidates with disabilities, and diversity
        groups. However, to complete the selection and training of the recruiting team, the IRS
        must develop an “On-the-Job Training Manual,” which is one of the key actions
        necessary to complete this best practice. The training manual will be used as a resource
        for recruiters to provide information on the function and protocol of recruiters as well as
        their roles and responsibilities in the recruiting process. In addition, the centralized
        IRS Recruitment Office will need to complete its selection of recruiters and ensure its
        recruiting cadre is diverse and has the needed competencies.
    •   Development of a retention plan – The IRS has not developed a formal retention plan,
        but instead uses a report from the Workforce of Tomorrow, the IRS Human Capital
        Business Plan, and IRS polices and procedures for requesting retention incentives as its
        guidance9 for identifying key retention needs and establishing methods that will enhance
        retention. These tools do not establish a defined plan to show how specific retention
        issues will be addressed. An effective retention plan is needed as a key action to
        implement a best practice that will assist in ensuring workforce competency gaps are
        closed through the use of effective recruitment and retention strategies.
Effective implementation of all best practices are necessary to increase the likelihood that the
IRS recruitment program will attract the most qualified candidates for providing the best possible
service to taxpayers.

Additional Actions Would Strengthen Efforts to Recruit Qualified
Employees
OPM guidance suggests that agencies align human capital management strategies with the
agency mission, goals, and objectives by effectively analyzing, planning, and measuring the
management of human capital programs. The activities and outcomes of a human capital
program should be assessed through a performance management process that defines its
objectives, goals, and desired outcomes; establishes measurements for assessing whether the
outcomes are being achieved; and includes planning tools for establishing milestones and
tracking accomplishments toward the completion of those goals and objectives.
Our prior audit of recruiting activities showed that the IRS did not have an adequate process in
place to assess the effectiveness of its recruiting efforts, including the measures that are needed
to make this assessment. The audit also concluded that the IRS needed an action plan for each
initiative in the newly developed recruitment strategy that included defined implementation dates
and responsible officials for implementing action items. While the IRS has made significant



9
 Collectively these three documents may meet the purpose of a formal retention plan, but it is not within our scope
of review to determine whether they met the intent of the End-to-End Hiring Roadmap.
                                                                                                            Page 8
                                      Improvements Have Been Made to the
                                    Recruitment Process, but Continued Focus
                                    and Additional Enhancements Are Needed



improvements in its ability to measure and track progress, further enhancements are needed to
the performance measurement process.

The performance measurement process can be enhanced by developing
additional measures and incorporating these measures into the
PeopleTrak system
Since the completion of the prior audit, the IRS developed several key measures that will be used
to compare the results of its recruiting efforts to expected performance. For example, the IRS
developed measures to determine the percentage of applicants and new hires that were attracted
to the IRS through contact with recruiting personnel. The IRS is also in the process of
implementing the PeopleTrak system, which is expected to provide the IRS with the information
it will need to measure the results of its recruiting efforts.10 However, the defined measures do
not address all of the strategies in the agency-wide strategic recruitment plan.
The IRS Strategic Recruitment Plan includes 6 broad objectives, which are supported by
13 strategies. However, measures were developed for only 3 of the recruiting strategies, leaving
the IRS with no method for assessing whether the other 10 strategies are achieving the strategic
recruitment goal of attracting outstanding candidates from diverse backgrounds to fill every
vacancy. For example, the IRS has one strategy aimed at developing deep, ongoing relationships
with core schools. However, the IRS does not have corresponding measures to show its progress
in completing activities to meet this strategy or the impact that the strategy is having on
recruiting in these core schools.
Once additional measures are developed, it will be important that they are tracked and acted
upon. The IRS expects the PeopleTrak system to be the primary tool for capturing information
to measure its recruiting efforts, but the system’s effectiveness will be greatly reduced if a
complete set of measures are not developed and incorporated into the system.

Tracking of actions taken to improve recruiting can be improved
In addition to developing measures for the remaining 10 strategies, the IRS must improve its
method used to monitor the implementation of recruitment initiatives. The IRS developed an
action plan for each initiative in the recruitment strategy and assigned management officials who
are responsible for ensuring implementation. However, the IRS did not use defined milestone




10
  The IRS is planning to have the PeopleTrak system implemented by the end of Fiscal Year 2010, which should
provide it with three distinct advantages over the existing system. It is intended to: 1) allow recruiters to enter data
real-time into a web-based system, 2) improve the quality and quantity of data by requiring data be entered into
selected fields and by providing dropdown information in some fields to improve the consistency of data,
and 3) provide system-wide information instantaneously and the ability to share information reports.

                                                                                                                Page 9
                                     Improvements Have Been Made to the
                                   Recruitment Process, but Continued Focus
                                   and Additional Enhancements Are Needed



dates11 to serve as targets for monitoring and implementing key actions. Instead of using
milestone dates, “milestone events”12 are being used to monitor the implementation of initiatives,
which increase the risk that remaining items will not be timely implemented. The use of
milestone dates would improve the IRS’ ability to identify delays and the causes for the delays.

Recommendation
Recommendation 1: In addition to continuing its focus on implementing the nine best
practices to build a fully effective recruiting program, the Director, IRS Recruitment Office,
should:
     •   Enhance the performance measurement process by developing measures for the
         10 recruitment strategies needed to assess whether they are achieving desired outcomes.
     •   Incorporate all applicable measures into the PeopleTrak system to ensure that the IRS has
         the information needed to manage the recruitment program.
     •   Establish completion dates for milestones in the recruitment office action plans to serve
         as targets for implementing the items and monitor the items until they are completed.
         Management’s Response: The IRS Recruitment Office agreed with our report
         findings and recommendation and is taking corrective actions by developing measures for
         the 10 recruitment strategies needed to assess whether the IRS is achieving desired
         outcomes. In addition, the IRS Recruitment Office is taking action to incorporate all
         applicable measures into the PeopleTrak system to ensure the IRS has the information
         needed to manage the recruitment program. Lastly, the Director, IRS Recruitment
         Office, is taking action to establish completion dates for milestones in the IRS
         Recruitment Office action plans to serve as targets for implementing the items and
         monitoring the items until they are completed.




11
   In those instances where completion dates were scheduled, we concluded the dates were unreliable because the
action plan listed actual completion dates that were in the future. For example, one item in the action plan listed the
actual completion date for an item as May 31, 2010, yet our audit test was conducted on March 24, 2010, which was
well before the date the action plan had listed the action as being completed.
12
   Milestone events are major tasks that must be completed during the implementation of a corrective action or
recruitment initiative.
                                                                                                             Page 10
                                      Improvements Have Been Made to the
                                    Recruitment Process, but Continued Focus
                                    and Additional Enhancements Are Needed



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the IRS’ progress in developing an agency-wide recruitment
program that will attract highly qualified candidates. We used the OPM End-to-End Hiring
Roadmap to evaluate IRS efforts to attract highly qualified candidates and followed up on
actions taken to correct issues reported in a prior Treasury Inspector General for Tax
Administration audit.1 To accomplish our objective, we:
I.       Determined whether IRS actions assisted the HCO in evaluating whether the
         agency-wide recruiting program will effectively attract highly qualified candidates.
         A. Assessed IRS actions taken to develop an effective agency brand that markets the IRS
            as an employer of choice and communicates the IRS’ values, vision, and mission.
         B. Assessed whether IRS actions assisted the HCO in evaluating whether:
              1. The recruitment team consists of a cadre of diverse recruiters with the right
                 competencies to market the IRS mission and its careers.
              2. Recruitment and staffing plans focused on IRS hiring needs to ensure
                 mission-critical occupation,2 geographic, and diversity goals are met.
              3. Its career pattern strategy enabled employees to connect to the career path they
                 want to be on.
              4. Its marketing strategies provide messaging specifically tailored to attract targeted
                 candidate segments.
              5. Agency-specific recruitment cycles have been identified, developed, and
                 implemented to provide ongoing feedback and evaluation of IRS recruiting
                 activities.
         C. Assessed whether IRS actions assisted the HCO in developing a focused approach to
            recruit qualified candidates from targeted schools and professional organizations.




1
  An Agency-Wide Recruitment Strategy and Effective Performance Measures Are Needed to Address Future
Recruiting Challenges (Reference Number 2009-10-025, dated February 23, 2009).
2
  Mission-critical occupations are those positions critical to front-line enforcement and direct support to front-line
operations needed to meet the stated IRS goals.
                                                                                                               Page 11
                              Improvements Have Been Made to the
                            Recruitment Process, but Continued Focus
                            and Additional Enhancements Are Needed



II.    Determined whether the IRS had implemented corrective actions to address issues from
       our prior audit of its recruitment activities.
       A. Analyzed the IRS’ agency-wide Strategic Recruitment Plan to ensure it was tied to
          organizational objectives and desired agency-wide outcomes; established an overall
          recruiting vision; and articulated recruitment goals, objectives, and expectations
          needed to attract highly qualified candidates.
       B. Reviewed the defined roles and responsibilities for the centralized recruiting cadre
          and IRS business units involved in the recruiting process, including specific
          recruitment activities of the Criminal Investigation, Wage and Investment, and
          Small Business/Self-Employed Divisions.
       C. Reviewed the IRS’ agency-wide Strategic Recruitment Plan to ensure it addresses the
          differing demographics (e.g., mid-career professionals, diversity needs, college
          students, etc.) and strategies for marketing the IRS as an employer of choice.
       D. Determined whether long-term workforce planning goals were established to ensure
          future retirement projections and anticipated skills needs were considered, including
          the integration of other key processes (e.g., the number of future employees based on
          estimates of attrition).
       E. Determined whether an action plan was created with defined implementation dates
          and responsible officials for actions needed to implement the IRS agency-wide
          Strategic Recruitment Plan.
       F. Determined whether performance measures were established to assess the
          effectiveness of recruiting efforts and the methods for evaluating recruiting efforts
          against performance measures, including the means of collecting the data to assess
          these efforts.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS HCO, IRS Recruitment Office,
Criminal Investigation Division, Small Business/Self-Employed Division, and Wage and
Investment Division policies, procedures, and practices for planning, managing, and monitoring
IRS recruiting efforts to attract and recruit highly qualified candidates. We evaluated these
controls by interviewing management and reviewing applicable documentation.




                                                                                          Page 12
                            Improvements Have Been Made to the
                          Recruitment Process, but Continued Focus
                          and Additional Enhancements Are Needed



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
John W. Baxter, Lead Auditor
John M. Jarvis, Auditor
Donald J. Martineau, Auditor




                                                                                  Page 13
                            Improvements Have Been Made to the
                          Recruitment Process, but Continued Focus
                          and Additional Enhancements Are Needed



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation Division SE:CI
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, IRS Recruitment Office OS:HC:IRO
Director, Talent, Hiring, and Recruitment Division OS:HC:THR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief, Criminal Investigation Division SE:CI:S:PS
   IRS Human Capital Officer OS:HCO
   Director, Communications and Liaison, Small Business/Self-Employed Division
   SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 14
                                    Improvements Have Been Made to the
                                  Recruitment Process, but Continued Focus
                                  and Additional Enhancements Are Needed



                                                                                               Appendix IV

               Status of Efforts to Improve Recruiting

The IRS has completed many of the key actions outlined in the OPM End-to-End Hiring
Roadmap to improve its recruiting process. However, to complete this process the IRS must
implement 20 remaining key actions needed to fully implement all 9 best practices and all 50 key
actions.
Effective implementation of all best practices are necessary to ensure IRS recruiting efforts
increase the likelihood that the most qualified candidates are hired to provide the best possible
service to taxpayers. Improved recruiting efforts will also help potential employees better learn
about career opportunities within the IRS. Table 1 lists each recruitment best practice as well as
the key actions completed and remaining actions necessary to implement an effective recruiting
process.
       Table 1: Analysis of Key Recruiting Actions Completed and Remaining

     Recruitment Best
     Practices                    Key Actions Completed                    Key Actions Remaining
     Create or Refine             •    Developed an agency brand. •            Perform brand audit.
     Agency Brand                 •    Initiated brand on IRS web          •   Create materials to
                                       site.                                   reflect agency brand.
                                                                           •   Develop strategies1 to
                                                                               implement the brand.
     Select and Train             •    Created a Recruiter                 •   Finish an “On-the-Job
     Recruitment Team                  Handbook.                               Training Manual.”
                                  •    Conducted training.                 •   Select an effective and
                                  •    Assigned program managers               diverse recruitment team
                                       to oversee recruitment                  with the right
                                       activities with schools.                competencies.
                                  •    Assigned recruiting
                                       managers to build relations
                                       with professional
                                       organizations.

1
 This includes developing a social media strategy. Social media includes the use of the Internet to communicate
and share information.
                                                                                                         Page 15
                                     Improvements Have Been Made to the
                                   Recruitment Process, but Continued Focus
                                   and Additional Enhancements Are Needed



     Recruitment Best
     Practices                     Key Actions Completed                     Key Actions Remaining
     Identify Career               •   Identified career patterns for •          None; all improvements
     Patterns                          employees.                                are implemented.
     Create Recruitment            •   Established an overall                •   Align Strategic
     and Staffing Plans                recruiting vision.                        Recruitment Plan with
                                   •   Requested stakeholder input.              the Workforce, Staffing
                                                                                 Acquisition, Affirmative
                                   •   Reviewed career paths.                    Action, Retention, and
                                   •   Analyzed exit interview                   Succession Plans.
                                       survey data.                          •   Develop an evaluation
                                   •   Analyzed staffing needs.                  plan.3
                                   •   Identified recruiting                 •   Identify skills gaps.
                                       incentives.
                                   •   Developed recruiting
                                       measures for assessing
                                       individual recruiting events.
                                   •   Identified talent pools.2
                                   •   Determined internal and
                                       external applicant sources.
                                   •   Developed policy and
                                       procedures to communicate
                                       with stakeholders.




2
  The identification of a talent pool is the action of identifying targeted talent requirements needed to ensure a
sufficient number of qualified and diverse candidates for open positions within the IRS.
3
  An evaluation plan provides a step-by-step guide through the evaluation process. The plan details the objectives of
the evaluation, the questions that will be answered and the information that will be collected to answer these
questions, and when the collection of information will begin and end.
                                                                                                           Page 16
                      Improvements Have Been Made to the
                    Recruitment Process, but Continued Focus
                    and Additional Enhancements Are Needed



Recruitment Best
Practices           Key Actions Completed              Key Actions Remaining
Develop Marketing   •   Redesigned the IRS web         •   Survey new hires to
Strategies              site with the agency brand.        obtain feedback on the
                    •   Selected job posting web           recruitment process.
                        sites (i.e., Monster Jobs,     •   Streamline the process
                        Yahoo, and Google) and             for excessive language
                        nontraditional web sites           in job announcements.
                        (i.e., Twitter, Second Life,
                        and Facebook).
                    •   Provided a realistic job
                        preview to applicants.
Cultivate           •   Created relationships with     •   None; all improvements
Relationships and       colleges and professional          are implemented.
Build Networks          organizations to draw from
                        a cross-section of society.
                    •   Developed recruitment
                        strategies for skills needs.
                    •   Partnered with professional
                        organizations to reach
                        diverse candidates.
                    •   Developed relationships
                        with career placement
                        offices.
                    •   Provided schools with
                        hiring needs and skills.
                    •   Developed strategies to fill
                        specific skills.
                    •   Hosted speaking
                        engagements.




                                                                                Page 17
                       Improvements Have Been Made to the
                     Recruitment Process, but Continued Focus
                     and Additional Enhancements Are Needed



Recruitment Best
Practices            Key Actions Completed             Key Actions Remaining
Identify             •   Determined recruitment        •   None; all improvements
Agency-Specific          cycles.                           are implemented.
Recruitment Cycles   •   Implemented an ongoing
                         feedback process.
                     •   Coordinated agency-wide
                         recruitment activities to
                         communicate with
                         recruitment teams and avoid
                         duplication of effort.
Evaluate and Measure •   Improvement can not be        •   Implement measures to
Recruitment, Staffing    implemented until                 monitor the
Plans, and Marketing     completion of other               effectiveness of
Strategies               recruitment best practices.       recruiting efforts.
                                                       •   Review recruiting
                                                           efforts.
                                                       •   Monitor new hire
                                                           attrition.
                                                       •   Conduct customer
                                                           surveys.
                                                       •   Share results of
                                                           evaluations with
                                                           management and other
                                                           stakeholders.
                                                       •   Review the recruitment
                                                           plan regularly.
                                                       •   Provide feedback on
                                                           recruitment.
                                                       •   Prepare recruiting
                                                           budget projections.
                                                       •   Ensure hiring
                                                           projections are realistic.




                                                                                  Page 18
                               Improvements Have Been Made to the
                             Recruitment Process, but Continued Focus
                             and Additional Enhancements Are Needed



 Recruitment Best
 Practices                   Key Actions Completed                   Key Actions Remaining
 Adjust Plans                •   Improvement cannot be               •   Adjust recruitment
                                 implemented until                       activities based on an
                                 completion of other                     evaluation of measures.
                                 recruitment best practices.
 Totals                                Completed: 30                         Remaining: 20
Source: Our analysis of IRS key actions and nine recruitment best practices in the OPM’s End-to-End
Hiring Roadmap.




                                                                                                      Page 19
            Improvements Have Been Made to the
          Recruitment Process, but Continued Focus
          and Additional Enhancements Are Needed



                                                Appendix V

Management’s Response to the Draft Report




                                                     Page 20
  Improvements Have Been Made to the
Recruitment Process, but Continued Focus
and Additional Enhancements Are Needed




                                           Page 21
